Semiannual Report to Congress April, 2010 - September 30, 2010
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Home > About EEOC > Office of Inspector General
OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS
April 1, 2010  September 30, 2010
OIG VISION
Agents Igniting Change and Fostering Accountability, Effectiveness and Efficiency in Government
OIG MISSION
OIGs mission is to (1) conduct and manage independent audit, evaluations, and investigations concerning Agency programs; (2) prevent and detect against Agency fraud, waste, and abuse; and (3) promote economy and efficiency, and effectiveness in Agency programs and operations.
CONTENTS
A Message from the Acting Inspector General
Executive Summary
Introduction
The Audit and Evaluation Program
Completed Projects
New and Ongoing Audit and Evaluation Projects
Audit Follow-Up
The Investigation Program
Investigative Inquiries
Completed Investigations
Ongoing Investigative Activity
OIG Professional Activity
Appendixes
Appendix I. Final Office of Inspector General Audit and Evaluation Reports
Appendix II. Index of Reporting Requirements
Appendix III. Single Audit Act Reports
A MESSAGE FROM THE ACTING INSPECTOR GENERAL
In accordance with the Inspector General Act of 1978, as amended, I herewith submit the Semiannual Report to Congress for the period April 1, 2010, through September 30, 2010, which summarizes the major activities of our office for the reporting period. Section 5 of the Inspector General Act requires the Chair to transmit this report to the appropriate committees or subcommittees of Congress within 30 days of its receipt.
During this period, the OIG completed seven investigations and received 683 investigative inquiries, of which 289 were charge processing issues, 277 were Title VII complaints, and 117 were other investigative allegations.
The OIG staff would like to thank Chair Jacqueline A. Berrien and her staff for their continued support, and we look forward to working with them in the future.
In closing, I would like to thank the dedicated staff of the OIG for their continued commitment to pursuing the mission of this office and that of the Commission.
Regards,
Milton A. Mayo Jr.
Acting Inspector General
October 29, 2010
EXECUTIVE SUMMARY
This semiannual report is issued pursuant to the Inspector General Act of 1978, as amended, and summarizes the Office of Inspector Generals (OIGs) activities and significant accomplishments for the period April 1, 2010, through September 30, 2010.
During the reporting period, the OIG closed seven investigative matters and received 683 investigative inquiries, of which 289 were charge-processing issues, 277 were Title VII complaints, and 117 were other investigative allegations.
Included among the OIGs completed, newly initiated, and ongoing audit, evaluation, and investigative projects are the following:
The firm of Harper, Rains, Knight & Company, P.A., commenced the fiscal year (FY) 2010 financial statement audit of the Equal Employment Opportunity Commission (EEOC), which is required by the Accountability of Tax Dollars Act of 2002. Fieldwork is ongoing, and the audit opinion is scheduled to be issued by November 15, 2010.
The OIG contracted with Delta Corporate Services, Inc., (Government Solutions Group) to perform an independent evaluation of EEOCs information security program and selected EEOC systems in compliance with the Federal Information Security Management Act (FISMA) of 2002 and the Office of Management and Budgets (OMBs) FY 2010 reporting requirements for Inspectors General contained in OMB Memorandum M-10-15. An entrance conference was held on July 28, 2010. Fieldwork continues and is scheduled to be completed early in the first quarter of 2011.
In September 2010, the OIG began a review of EEOCs State and Local Programs, which manages the Agencys partnerships with Fair Employment Practice Agencies (FEPAs). The OIG contracted the Washington, D.C., office of Williams, Adley & Company, LLP, to conduct a review of State and Local Programs. The draft and final reports are scheduled to be issued in the second quarter of FY 2011.
The OIG completed an internal control review of the Miami District Office. A draft report will be issued in the first quarter of FY 2011.
The OIG completed various investigations involving an array of allegations, including prohibited personnel practices, conflicts of interest, time and attendance fraud, and destruction of official records.
The OIG is conducting ongoing investigations in several field offices involving prohibited personnel practices, ethics violations, conflicts of interest, time and attendance fraud, falsification of government records, misuse of government vehicles, impersonation of a Federal official, theft of government property, threats against the Agency, forgery, and misuse of a government credit card.
The OIG performed a peer review of the Office of Inspector General of the Federal Communications Commission (FCC) for the period ending March 31, 2010. The report was issued August 26, 2010.
The OIG became the first DFE OIG to conduct a Council of Inspectors General on Integrity and Efficiency (CIGIE) Integrity Committee investigation. The OIG investigative staff was commended by the leadership of the Integrity Committee for the manner in which they conducted the investigation and the quality of the report.
As of the close of the reporting period, the OIG had vacancies in the positions of Inspector General and Management Analyst.
INTRODUCTION
The Equal Employment Opportunity Commission
The Equal Employment Opportunity Commission (EEOC) is the Federal agency responsible for enforcement of Title VII of the Civil Rights Act of 1964, as amended; the Equal Pay Act of 1963; the Age Discrimination in Employment Act of 1967; Section 501 of the Rehabilitation Act of 1973 (in the Federal sector only); Title I of the Americans with Disabilities Act of 1990 and Americans with Disabilities Act Amendments Act of 2008; the Civil Rights Act of 1991; the Lilly Ledbetter Fair Pay Act of 2009; and the Genetic Information Nondiscrimination Act of 2008 (P.L. 110-233 Stat 881), also referred to as GINA. These statutes prohibit employment discrimination based on race, sex, color, religion, national origin, age, disability, or genetic information.
EEOC is also responsible for carrying out Executive Order 12067, which promotes coordination and minimizes conflict and duplication among Federal agencies that administer statutes or regulations involving employment discrimination.
EEOC is a bipartisan commission composed of five presidentially appointed members, including a Chair, a Vice Chair, and three commissioners. The Chair is responsible for the administration and implementation of policy and for the financial management and organizational development of the Commission. The Vice Chair and the commissioners equally participate in the development and approval of the policies of EEOC, issue charges of discrimination where appropriate, and authorize the filing of lawsuits. Additionally, the President appoints a General Counsel, who is responsible for conducting litigation under the laws enforced by the Commission.
The Office of Inspector General
The U.S. Congress established an Office of Inspector General (OIG) at EEOC through the 1988 amendments of the Inspector General Act of 1978, which expanded authority to designated Federal entities to create independent and objective OIGs. Under the direction of the Inspector General (IG), the OIG meets this statutory responsibility by conducting and supervising audits, evaluations, and investigations relating to the programs and operations of the Agency; providing leadership and coordination; and recommending policies for activities designed to promote economy, efficiency, and effectiveness in the administration of programs and operations.
In October 2008, Congress passed the Inspector General Reform Act of 2008, which generally buttressed the independence of IGs, increased their resources, and held them more accountable for their performance.
The OIG is under the supervision of the IG, an independent EEOC official subject to the general supervision of the Chair. The IG must not be prevented or prohibited by the Chair or any other EEOC official from initiating, carrying out, or completing any audit, investigation, evaluation, or other inquiry or from issuing any report.
The IG provides overall direction, coordination, and leadership to the OIG; is the principal advisor to the Chair in connection with all audit and investigative matters relating to the prevention, identification, and elimination of waste in any EEOC program or operation; and recommends the proper boundaries of audit and investigation jurisdiction between the OIG and other EEOC organizations. The IG also develops a separate and independent annual budget for the OIG; responds directly to inquiries from the public, Congress, or the news media; and prepares press releases, statements, and other information about the OIGs activities.
The Deputy Inspector General (DIG) serves as the alter ego of the IG and participates fully in policy development and management of the diverse audit, investigation, evaluation, and support operations of the OIG. The DIG also ensures that the Audit, Evaluation, and Investigation Programs (AEIP) address their mission, goals, and objectives in accordance with the Inspector General Act, other laws, Agency policy, and congressional requests. The DIG provides overall direction, program guidance, and supervision to the AEIP. The AEIP staff conducts audits, evaluations, and investigations of EEOC operations and activities and prepares reports for issuance to the Chair, EEOC management, and Congress.
The Counsel to the Inspector General (CIG) is the sole legal advisor in the OIG, providing advice in connection with matters of importance to the OIG. The CIG provides day-to-day guidance to the OIGs investigation team and is the primary liaison with Agency legal components and the Department of Justice. The CIG assists the IG and DIG in the development and implementation of the OIGs policies and procedures. The CIG conducts legal reviews of all audit, evaluation, and investigation reports; reviews proposed and revised legislation and regulations; and recommends appropriate responses and actions.
In addition to these positions, the OIG staff includes a management analyst, an evaluator, two auditors, two criminal investigators, an administrative specialist, and a confidential support assistant.
The OIG has two vacant positions. The Inspector Generals position has been vacant since January 2010. In April 2010, the OIGs management analyst, who served as its information technology specialist, accepted an appointment with another Designated Federal Entity (DFE). The incumbent managed the OIGs information technology program, including its oversight of the Agencys annual Federal Information Security Management Act review. We anticipate that the Agencys Office of Human Resources (OHR) will have completed a reclassification of the position and that a vacancy announcement will be issued during the first quarter of FY 2011.
THE AUDIT AND EVALUATION PROGRAM
The Audit and Evaluation Program supports the OIGs strategic goal to improve the economy, efficiency, and effectiveness of EEOC programs, operations, and activities.
COMPLETED PROJECTS
Peer Review of the Federal Communications Commission
In accordance with Government Auditing Standards and Council of the Inspectors General on Integrity and Efficiency (CIGIE) guidelines, the audit operations of OIGs are to undergo independent external peer reviews every three years. The EEOC OIG performed the peer review of the Federal Communications Commissions (FCCs) OIG for the period ending March 31, 2010. In our opinion, the system of quality control for the FCC OIGs audit organization in effect for the year ending March 31, 2010, was suitably designed and complied with to provide FCC reasonable assurance of performing and reporting in conformity with applicable professional standards, and we issued a peer review rating of pass.
NEW AND ONGOING AUDIT AND EVALUATION PROJECTS
Agency Compliance with the Federal Managers Financial Integrity Act (FMFIA)
The OIGs independent assessment is to determine if the Agencys management control evaluation process was conducted in accordance with Office of Management and Budget (OMB) standards. EEOC Order 195.001, Internal Control Systems, requires the OIG to annually provide the Chair a written advisory on whether EEOCs management control evaluation process complied with OMB guidelines. To make this determination, the OIG is reviewing:
system assurance statements submitted by headquarters and district directors;
functional area summary tables and functional area reports submitted by headquarters and field offices; and
EEOCs Office of Research, Information, and Plannings FY 2010 Federal Managers Financial Integrity Act (FMFIA) Assurance Statement and Assurance Statement Letter, with supporting documents.
The OIG expects to issue the assessment to the Chair prior to the reporting deadline of November 15, 2010, for inclusion in the Agencys 2010 Performance and Accountability Report.
FY 2010 Audit of the Consolidated EEOC Financial Statements
The OIG contracted with Harper, Rains, Knight & Company, P.A., of Ridgeland, Mississippi, to perform the 2010 financial statement audit of the EEOC, which is required by the Accountability of Tax Dollars Act of 2002. Fieldwork is ongoing, and the audit opinion is expected to be issued by November 15, 2010, to meet the OMBs deadline and to be included in the Agencys 2010 Performance and Accountability Report. Additionally, a management letter report will be issued shortly after the financial statement audit, identifying any internal control weaknesses.
FY 2010 Federal Information Security Management Act (FISMA) Audit
The OIG contracted with Delta Corporate Services, Inc. (Government Solutions Group), to perform an independent evaluation of EEOCs information security program and selected EEOC systems for compliance with the FISMA Act of 2002 and the OMBs FY 2010 reporting requirements for Inspectors General contained in OMB Memorandum M-10-15. An entrance conference was held on July 28, 2010. Fieldwork is under way and is scheduled to be completed early in the first quarter of 2011 to meet the November 15, 2010, OMB reporting deadline.
State and Local Programs Management
EEOC provided about $30 million in FY 2010 to its state and local partners, known as Fair Employment Practice Agencies (FEPAs), to resolve employment discrimination charges. The OIG contracted with the Washington, D.C., office of Williams, Adley & Company, LLP, to conduct a program evaluation of the EEOC State and Local Programs Office to generally assess the Agencys performance in managing this program. The scope of the evaluation will focus, at a high level, on the adequacy, effectiveness, and efficiency of EEOCs FEPA program management activities in four key areas:
Program goals and performance-related objectives, measures, and standards;
Oversight of case quality;
Determination of payment eligibility and payment amounts; and
The financial controls and processes in place to ensure efficiency in the voucher payment process and to prevent fraud, waste, and abuse.
The draft and final reports are scheduled to be issued during the second quarter of FY 2010.
Internal Control Review of the Miami District Office
The OIG concluded its internal control testing of the Miami District Office. A draft report will be issued in the first quarter of FY 2011.
AUDIT FOLLOW-UP
Audit follow-up is an integral part of good management and is a shared responsibility of Agency management officials and auditors. Corrective action taken by management on resolved findings and recommendations is essential to improving the effectiveness and efficiency of Agency operations. Therefore, EEOC needs to review and enhance the corrective action process to ensure the prompt resolution and implementation of audit recommendations.
Section 5(a)(1) of the Inspector General Act of 1978, as amended, requires semiannual reports to include a summary description of significant problems, abuses, and deficiencies relating to the Agencys administration of programs and operations disclosed by the OIG during the reporting period. There were no reports issued during this reporting period.
As required by Section 5(a)(3) of the Inspector General Act of 1978, as amended, semiannual reports are to provide an identification of each significant recommendation described in previous semiannual reports on which corrective action has not been completed. OIG staff met with the Agency follow-up officials on August 12, 2010, and noted no corrective action plans had been received since our meeting held in March 2010. The OIG spring 2010 Semiannual Report to Congress disclosed 11 reviews with a total of 52 open recommendations. For this reporting period, the OIG is reporting a total of 9 reviews with a total of 35 open recommendations. The following table shows those recommendations for which corrective action has not been completed.
Recommendations for Which Corrective Actions Have Not Been Completed
Fiscal Year
Report Number
Report Title
Date Issued
2010
2009-04-FIN
FY 2009 Financial Statement Audit MReport
11/13/209
The Office of Human Resources (OHR) should review and refine the controls in place over time and attendance reporting to ensure that all employees report accurate and complete information to timekeepers. Additionally, OHR should implement a policy requiring time sheets with incorrect or incomplete information to be returned to employees for correction before certifying time and attendance information in EEOCs online timekeeping system.
The Chief Financial Officer (CFO), along with the Director of the Revolving Fund Division (RFD), should review accrual procedures in place and refine these procedures to ensure all revenue not earned at year-end is properly classified as deferred in the financial statement.
The CFO should work with the Director of RFD to ensure that documentation is maintained to support all transactions recorded in the general ledger. The CFO should coordinate with RFD to ensure that timely, complete, and accurate reconciliations are performed between the general ledger and the subsidiary ledger, and differences identified are researched and resolved.
Fiscal Year
Report Number
Report Title
Date Issued
2009
2008-05-FIN
FY 2008 Financial Statement Audit Internal Control Report
11/14/2008
Review and refine controls over time and attendance reporting that require incomplete time sheets to be returned to employees before certification.
Ensure information submitted to OHR is processed in a timely manner and training is provided to timekeepers and approving officials.
Review accrual procedures and refine those procedures to ensure all revenue not earned at year-end is properly classified as deferred in financial statements.
Work with RFD Director to ensure information recorded in the general ledger is accurately recorded based on supporting documentation.
The CFO should coordinate with RFD to ensure timely, complete, and accurate reconciliations are performed between the general ledger and the subsidiary ledger, and identify the differences between the ledgers.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2007-11-RFPERF
Performance Audit of the Equal Employment Opportunity Commissions Education, Training, and Technical Assistance Program Revolving Fund
8/26/2008
Operate the Revolving Fund as an independent program within the Agency.
Approve the establishment of the EEOC Training Institute Steering Committee.
Update the Revolving Fund Business Plan to reflect strategic direction, vision, and goals over the next three to five years.
Initiate cross-training between job functions where reasonable and practical.
Reconcile spending plans to amounts recorded in the accounting system.
Seek professional assistance to develop a more effective budget method to project financial information to plan training events and monitor goals.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-12-AEP
FY 2008 Independent Audit of EEOC Privacy Program
9/30/2008
Develop and implement policies and procedures to provide periodic reminders to all employees and contractors of their responsibility to protect sensitive personally identifiable information (PII) in both electronic and hard-copy format.
Develop, document, and implement procedures to monitor compliance with EEOC policies and procedures related to the protection, processing, storage, and destruction of sensitive hard-copy PII.
Centralize administration of Web site privacy policies.
Ensure that all privacy policies posted to EEOC Web sites comply with OMB requirements.
Ensure all privacy policies are posted on (a) EEOCs principal Web site, (b) any known major entry points to EEOC sites, and (c) any Web page that collects substantial information in identifiable form.
Review all privacy laws and regulations and identify those applicable to the EEOC.
Develop, document, and implement a formal process for ensuring all new privacy-related laws and regulations are evaluated to determine whether EEOC is required to follow them.
Continue with the planned action to implement two-factor authentication with the implementation of Homeland Security Presidential Directive 12 badges.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-13-AEP
Independent Evaluation of Agency Compliance with Federal Information Systems Management Act
9/24/2008
Implement plans and procedures with the Agency field offices to identify and excess all old and nonworking information systems by April 30, 2008. Also ensure that information is appropriately destroyed before the systems excess.
Develop and implement policies and procedures to provide periodic reminders to all employees and contractors regarding their responsibility to take reasonable measures to safeguard authenticators (passwords) from being exposed to unauthorized personnel.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-03-AMR
Oversight of Federal Agency Reporting Management Directive 715 (MD-715) and Related Topics
9/26/2008
Develop a written plan, including a schedule, to ensure timely training for staff with major oversight assignments.
Assess the Federal Sector Programs organizational structure based on the currently authorized positions in order to create more stability.
Develop a plan with milestones for making MD-715 a Web-based submission process.
Ensure all agencies receive Office of Federal Operations feedback on MD-715 in time to fully prepare for FY 2008 submissions.
Obtain customer feedback on MD-715 and other oversight issues using a real-time blog or similar mechanism.
Require Federal agencies to submit Part G, their Equal Employment Opportunity assessment, with their annual MD-715 submissions.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-10-RFFIN
FY 2007 Financial Statement Audit of EEOC Training and Technical Assistance Internal Control
11/15/2007
Implement a policy to periodically review undeliverable orders (UDOs) to ensure all recorded UDOs are adequately supported.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-12-AMR
Evaluation of EEOC Field Office Continuity of Operations (COOP) Plans
3/27/2008
Direct field office directors to prepare COOP activities to ensure field offices are adequately prepared for a COOP event.
Ensure all field office staff completes the COOP Awareness Course.
Develop and implement policies and procedures instructing field office staff to store all mission-critical electronic files on Agency-managed network drives.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-08-FIN
FY 2007 Financial Statement Audit
11/15/2007
OHR should review and refine time and attendance controls.
As required by Section 5(a)(10) of the Inspector General Act of 1978, as amended, semiannual reports shall include a summary of each audit report issued before the start of the reporting period for which no management decision has been made by the end of the reporting period. The OIG issued no audit or evaluation reports prior to the reporting period for which no management decision has been made.
THE INVESTIGATION PROGRAM
The Investigation Program supports the OIGs strategic goal to focus limited investigative resources on issues that represent the greatest risk and offer the maximum opportunity to detect and prevent fraud, waste, and abuse in EEOC programs and operations.
INVESTIGATIVE INQUIRIES
Investigative Inquires Received April 1, 2010September 30, 2010
Allegations
Number
Charge processing
289
Other statutes
36
Title VII
277
Mismanagement
3
Ethics Violations
2
Backgrounds
9
Theft
6
Threats
49
Fraud
4
Other Criminal Allegations
4
Congressional Inquiries
4
Total
683
COMPLETED INVESTIGATIONS
Conflict of Interest
The EEOCs Designated Agency Ethics Official (DAEO) referred a matter to the OIG for investigation which involved possible criminal conduct. During the course of the annual review of an employees financial disclosure form, the DAEO discovered information which resulted in a determination the employee may have violated Title 18 U.S.C. Section 208.
Title 18 U.S.C. Section 208 prohibits government employees from participating personally and substantially as a Government officer or employee, through decision, approval, disapproval, recommendation, the rendering of advice, investigation, or otherwise in a judicial or other proceeding, application, request for ruling or other determination, contract, claim, controversy, charge, accusation, arrest, or other particular matter in which, to his knowledge, he, his spouse, minor child, . . . has a financial interest.
The OIGs investigation established the employees involvement in the discrimination cases in question was not substantial, but rather was strictly ministerial and administrative. The employee did not conduct any investigation, engage in any substantive review of the cases, or make or recommend any decisions on the cases. The OIG found that the employees conduct did not violate 18 U.S.C. Section 208. Accordingly, the OIG closed the matter.
Inappropriate Conduct
The OIG received a complaint from a charging party alleging an EEOC investigator had sexually harassed her on several occasions during the investigation of her charge. During the course of the OIGs preliminary investigation of the matter, EEOC management officials determined the investigator had engaged in other acts of misconduct and terminated his employment with EEOC. Based on these circumstances, the OIG closed this matter.
Retaliation
The OIG received a complaint from an Agency official alleging he had received a lowered performance appraisal as an act of retaliation because he reported to the OIG what he believed were managements efforts to unlawfully convert an EEOC employee to a management position. The OIG conducted an investigation and determined there was insufficient evidence to substantiate the underlying allegations or to support a finding that the lowered performance appraisal was a result of retaliation for the officials disclosures to the OIG.
Improper Conduct
The OIG received an anonymous complaint alleging an EEOC official had attempted to promote employees with whom the official was having inappropriate social relationships. The OIG investigated this matter and spoke with employees under the officials direct supervision. None of the employees could provide direct evidence to substantiate the allegation the official was carrying on inappropriate relationships with individuals within the office. The OIG closed this matter based on a lack of evidence to substantiate the allegations.
The OIG administratively closed two other matters. In one instance the OIG determined that the matter was outside of its purview. In the other instance, the complainant failed to cooperate in providing evidence to support her allegations.
Special Investigative Project
The OIG conducted an investigation of an Inspector General of another Designated Federal Entity at the request of the Integrity Committee of the Council of Inspectors General for Integrity and Efficiency (CIGIE). The matter involved allegations of improper influence in the course of an OIG procurement action. OIG found that the allegations were not substantiated and issued a report to the CIGIE in April 2010.
ONGOING INVESTIGATIVE ACTIVITIES
The OIG has ongoing investigations in several field offices involving prohibited personnel practices, ethics violations, conflicts of interest, time and attendance fraud, falsification of government records, misuse of government vehicles, impersonation of a Federal official, theft of government property, threats against the Agency, forgery, and misuse of a government credit card.
OIG PROFESSIONAL ACTIVITY
Below are the professional activities engaged in by OIG staff during the reporting period.
Staff Certifications
The OIG has a highly qualified and very well credentialed staff dedicated to the mission of the office. OIG staff members possess the following certifications:
Certified Fraud Examiner (CFE)
Certified Government Financial Manager (CGFM)
Certified High Technology Criminal Investigator
Certified Inspector General (CIG)
Certified Inspector GeneralAuditor (CIGA)
Certified Inspector GeneralInvestigator (CIGI)
Certified Public Accountant (CPA)
Contracting Officer Technical Representative (COTR)
Association Affiliations
OIG staff members maintain affiliations with the following associations related to the work of the OIG:
American Bar Association (ABA)
American Evaluation Association (AEA)
American Institute of Certified Public Accountants (AICPA)
Association of Certified Fraud Examiners (ACFE)
Association of Government Accountants (AGA)
Association of Inspectors General (AIG)
Council of Counsels to the Inspectors General
Council of Inspectors General for Integrity and Efficiency (CIGIE) Integrity Committee
Evaluation and Inspection Roundtable
Federal Law Enforcement Officers Association
Institute of Internal Auditors
Maryland Association of Certified Public Accountants (MACPA)
Maryland State Bar Association (MSBA)
National Organization for Black Law Enforcement Executives (NOBLE)
Toastmasters International
Professional Training
During the reporting period, OIG staff members participated in the following training courses:
AGA Internal Controls and Fraud Conference
AICPA Government Accounting and Auditing Conference
AICPA Government Accounting and Auditing Update
CIGIE assessment of Lincoln Leadership Institute
COTR Training
Evaluation of Contractors Performance
Fred Pryor Management Skills for New or Prospective Managers
Inspector General Criminal Investigator Academy (IGCIA) Interviewing for Fraud Auditor
Inspector General Public Corruption Investigations Training Program
MACPA Professional Issues Update
Scottsdale Seminars Business Writing Solutions
APPENDIXES
APPENDIX I. FINAL OFFICE OF INSPECTOR GENERAL AUDIT AND EVALUATION REPORTS
Report Title
Date Issued
Questioned Costs
Funds Put to Better Use
Unsupported Costs
None issued.
APPENDIX II. INDEX OF REPORTING REQUIREMENTS
Inspector General Act Citation
Reporting Requirements
Page
Section 4(a)(2)
Review of Legislation and Regulations
NA
Section 5(a)(1)
Significant Problems, Abuses, and Deficiencies
717
Section 5(a)(2)
Recommendations with Respect to Significant Problems, Abuses, and Deficiencies
79
Section 5(a)(3)
Significant Recommendations Included in Previous Reports on Which Corrective Action Has Not Been Completed
1014
Section 5(a)(4)
Matters Referred to Prosecutive Authorities
NA
Section 5(a)(5)
Summary of Instances Where Information Was Refused
NA
Section 5(a)(6)
List of Audit Reports
20
Section 5(a)(7)
Summary of Significant Reports
7-9
Section 5(a)(8)
Questioned and Unsupported Costs
20
Section 5(a)(9)
Recommendations That Funds Be Put to Better Use
20
Section 5(a)(10)
Summary of Audit Reports Issued Before the Commencement of the Reporting Period for Which No Management Decision Has Been Made
14
Section 5(a)(11)
Significant Management Decisions That Were Revised During the Reporting Period
NA
Section 5(a)(12)
Significant Management Decisions with Which the Office of Inspector General Disagreed
NA
APPENDIX III. SINGLE AUDIT ACT REPORTS
The Single Audit Act of 1984 requires recipients of Federal funds to arrange for audits of their activities. Federal agencies that award these funds must receive annual audit reports to determine whether prompt and appropriate corrective action has been taken in response to audit findings. During the reporting period, the OIG reviewed 46 audit reports issued by public accounting firms concerning Fair Employment Practice Agencies (FEPAs) that have work-sharing agreements with EEOC. There were no audit findings for the FEPAs that involved EEOC funds.
The State of New Hampshire, June 30, 2009
The State of Maryland, June 30, 2009
The State of Colorado, June 30, 2008
The State Utah, June 30, 2009
The State of North Dakota, June 30, 2008
The State of Washington, June 30, 2009
The State of Montana, June 30, 2009
The State of Nevada, June 30, 2009
The City of New York, June 30, 2008
The State of Nebraska, June 30, 2009
The State of Virginia, June 30, 2009
The State of Kentucky, June 30, 2009
Miami-Dade County, September 30, 2008
The Government of the District of Columbia, September 30, 2009
The Government of the District of Columbia, September 30, 2008
The State of North Carolina, June 30, 2009
The State of Florida, June 30, 2009
The State of Delaware, June 30, 2009
The State of West Virginia, June 30, 2009
The State of Massachusetts, June 30, 2009
The State of Maine, June 30, 2009
The State of Connecticut, June 30, 2009
The State of Idaho, June 30, 2009
The State of Oregon, June 30, 2009
The State of Oklahoma, June 20, 2009
The State of Kansas, June 30, 2009
The State of Missouri, June 30, 2009
The State of Wisconsin, June 30, 2009
The State of Iowa, June 30, 2009
The City of New York, June 30, 2009
The State of Indiana, June 30, 2009
The State of Rhode Island, June 30, 2009
The State of New York, March 31, 2009
The State of Alaska, June 30, 2009
The State of Louisiana, June 30, 2009
The State of Georgia, June 30, 2009
The State of Colorado, June 30, 2009
The State of Wyoming, June 30, 2009
The State of Ohio, June 30, 2009
The State of South Dakota, June 30, 2009
The State of Arizona, June 30, 2009
The State of Maryland, June 30, 2008
The State of Pennsylvania, June 30, 2009
The State of Indiana, June 30, 2009
The State of Illinois, June 30, 2009
The State of Tennessee, June 30, 2009
OIG Hotline
The OIG Hotline Program was established for Agency employees, other Government employees, contractors, and the general public to report fraud, waste, abuse, or wrongdoing by phone, e-mail
What Should you Report
You should report any concern you may have over a situation in which EEOC is the potential victim of fraudulent acts by employees, contractors, or others. It includes any violations of laws, rules, regulations, gross mismanagement, gross waste or misappropriation of funds, and abuses of authority.
OIG Hotline Contact Information
Call:
EEOC-OIG Hotline
Toll-free 1-800-849-4230
E-Mail:
E-Mail address
OIG.HOTLINE@EEOC.GOV
Write:
Equal Employment Opportunity Commission
Office of Inspector General
PO Box 77067
Washington, DC 20013-7067
Privacy Policy | Disclaimer | USA.Gov